<html>
<title> - LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 571, GREAT LAKES WATER PROTECTION ACT; S. 1153, INVASIVE FISH AND WILDLIFE PREVENTION ACT; S. 1175, INFRASTRUCTURE FACILITATION AND HABITAT CONSERVATION ACT OF 2013; S. 1202, SAFE ACT; S. 1232, GREAT LAKES ECOLOGICAL AND ECONOMIC PROTECTION ACT OF 2013; H.R. 1300, TO AMEND THE FISH AND WILDLIFE ACT OF 1956 TO REAUTHORIZE THE VOLUNTEER PROGRAMS AND COMMUNITY PARTNERSHIPS FOR THE BENEFIT OF NATIONAL WILDLIFE REFUGES, AND FOR OTHER PURPOSES; S. 1381, BIG CATS AND PUBLIC SAFETY PROTECTION ACT; S. 1650, A BILL TO AMEND THE MIGRATORY BIRD TREATY ACT TO EXEMPT CERTAIN ALASKA NATIVE ARTICLES FROM PROHIBITIONS AGAINST SALE OF ITEMS CONTAINING NONEDIBLE MIGRATORY BIRD PARTS, AND FOR OTHER PURPOSES; S. 2225, SMART WATER RESOURCE MANAGEMENT CONSERVATION AND EFFICIENCY ACT OF 2014; S. 2530, A BILL TO AMEND TITLE 18, UNITED STATES CODE, TO PROHIBIT THE IMPORTATION OR EXPORTATION OF MUSSELS OF CERTAIN GENUS, AND FOR OTHER PURPOSES; AND S. 2560, UNITED STATES FISH AND WILDLIFE SERVICE RESOURCE PROTECTION ACT</title>
<body><pre>[Senate Hearing 113-772]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-772
 
  LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 571, GREAT 
    LAKES WATER PROTECTION ACT; S. 1153, INVASIVE FISH AND WILDLIFE 
   PREVENTION ACT; S. 1175, INFRASTRUCTURE FACILITATION AND HABITAT 
   CONSERVATION ACT OF 2013; S. 1202, SAFE ACT; S. 1232, GREAT LAKES 
ECOLOGICAL AND ECONOMIC PROTECTION ACT OF 2013; H.R. 1300, TO AMEND THE 
FISH AND WILDLIFE ACT OF 1956 TO REAUTHORIZE THE VOLUNTEER PROGRAMS AND 
 COMMUNITY PARTNERSHIPS FOR THE BENEFIT OF NATIONAL WILDLIFE REFUGES, 
AND FOR OTHER PURPOSES; S. 1381, BIG CATS AND PUBLIC SAFETY PROTECTION 
 ACT; S. 1650, A BILL TO AMEND THE MIGRATORY BIRD TREATY ACT TO EXEMPT 
CERTAIN ALASKA NATIVE ARTICLES FROM PROHIBITIONS AGAINST SALE OF ITEMS 
 CONTAINING NONEDIBLE MIGRATORY BIRD PARTS, AND FOR OTHER PURPOSES; S. 
 2225, SMART WATER RESOURCE MANAGEMENT CONSERVATION AND EFFICIENCY ACT 
  OF 2014; S. 2530, A BILL TO AMEND TITLE 18, UNITED STATES CODE, TO 
 PROHIBIT THE IMPORTATION OR EXPORTATION OF MUSSELS OF CERTAIN GENUS, 
 AND FOR OTHER PURPOSES; AND S. 2560, UNITED STATES FISH AND WILDLIFE 
                    SERVICE RESOURCE PROTECTION ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
                           U.S. GOVERNMENT PUBLISHING OFFICE
  98-182 PDF                      WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                              
                               
                               
                               
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
THOMAS R. CARPER, Delaware           JOHN BOOZMAN, Arkansas
SHELDON WHITEHOUSE, Rhode Island     JAMES M. INHOFE, Oklahoma
JEFF MERKLEY, Oregon                 JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         JEFF SESSIONS, Alabama
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 16, 2014
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Levin, Hon. Carl, U.S. Senator from the State of Illinois, 
  prepared statement.............................................     2
Blumenthal, Hon. Richard, U.S. Senator from the State of 
  Connecticut....................................................     4
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York     5
Kirk, Hon. Mark, U.S. Senator from the State of Illinois.........     6
Heller, Hon. Dean, U.S. Senator from the State of Nevada.........     8
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    10
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   123
Feinstein, Hon. Dianne, U.S. Senator from the State of 
  California, prepared statement.................................   124

                               WITNESSES

Shapiro, Mike, Principal Deputy Assistant Administrator, Office 
  of Water, U.S. Environmental Protection Agency.................    17
    Prepared statement...........................................    19
    Response to an additional question from Senator Vitter.......    27
Guertin, Steve, Deputy Director for Policy, U.S. Fish and 
  Wildlife Service...............................................    28
    Prepared statement...........................................    30
    Responses to additional questions from:
        Senatory Cardin..........................................    39
        Senator Vitter...........................................    41
Stein, Bruce A., Ph.D., Director, Climate Change Adaptation, 
  National Wildlife Federation...................................    49
    Prepared statement...........................................    51
Lord, Chad, Policy Director, Healing Our Waters--Great Lakes 
  Coalition, and Senior Director, Water Policy, National Parks 
  Conservation Association.......................................    61
    Prepared statement...........................................    63
Wasley, Tony, Director, Nevada Department of Wildlife............    77
    Prepared statement...........................................    79

                          ADDITIONAL MATERIAL

Letter from the Alliance for the Great Lakes to Senators Cardin 
  and Boozman....................................................   126
Letter from the Natural Resources Defense Council to Senators 
  Cardin and Kirk................................................   129
Testimony of the Alaska Federation of Natives....................   131
Letter from the Alliance for Water Efficiency to Senator Tom 
  Udall..........................................................   134
Letter from the Alliance for Water Efficiency et al. to Senator 
  Tom Udall......................................................   135
Letter from the Alliance for Water Efficiency et al. to Senators 
  Tom Udall and Chambliss........................................   137
Letter from Plumbing Manufacturers International to Senator Tom 
  Udall..........................................................   139
Letter from the Union of Concerned Scientists to Senator Tom 
  Udall..........................................................   141
Letter from the National Environmental Coalition on Invasive 
  Species to Senator Heller......................................   143
Letter from the Western Governors' Association to Representative 
  Heck...........................................................   144
Testimony of the National Wildlife Refuge Association............   145
 LEGISLATIVE HEARING TO CONSIDER THE FOLLOWING ITEMS: S. 571, 
 GREAT LAKES WATER PROTECTION ACT; S. 1153, INVASIVE FISH AND 
 WILDLIFE PREVENTION ACT; S. 1175, INFRASTRUCTURE FACILITATION 
  AND HABITAT CONSERVATION ACT OF 2013; S. 1202, SAFE ACT; S. 
  1232, GREAT LAKES ECOLOGICAL AND ECONOMIC PROTECTION ACT OF 
2013; H.R. 1300, TO AMEND THE FISH AND WILDLIFE ACT OF 1956 TO 
 REAUTHORIZE THE VOLUNTEER PROGRAMS AND COMMUNITY PARTNERSHIPS 
  FOR THE BENEFIT OF NATIONAL WILDLIFE REFUGES, AND FOR OTHER 
 PURPOSES; S. 1381, BIG CATS AND PUBLIC SAFETY PROTECTION ACT; 
   S. 1650, A BILL TO AMEND THE MIGRATORY BIRD TREATY ACT TO 
EXEMPT CERTAIN ALASKA NATIVE ARTICLES FROM PROHIBITIONS AGAINST 
 SALE OF ITEMS CONTAINING NONEDIBLE MIGRATORY BIRD PARTS, AND 
 FOR OTHER PURPOSES; S. 2225, SMART WATER RESOURCE MANAGEMENT 
  CONSERVATION AND EFFICIENCY ACT OF 2014; S. 2530, A BILL TO 
AMEND TITLE 18, UNITED STATES CODE, TO PROHIBIT THE IMPORTATION 
   OR EXPORTATION OF MUSSELS OF CERTAIN GENUS, AND FOR OTHER 
PURPOSES; AND S. 2560, UNITED STATES FISH AND WILDLIFE SERVICE 
                    RESOURCE PROTECTION ACT

                              ----------                              


                        WEDNESDAY, JULY 16, 2014

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m. in room 
406, Dirksen Senate Building, Hon. Benjamin L. Cardin (chairman 
of the subcommittee) presiding.
    Present: Senators Cardin, Boozman, Gillibrand, and 
Whitehouse.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Good afternoon, and welcome to the 
Subcommittee on Water and Wildlife of the Environment and 
Public Works Committee.
    I thank Senator Boozman for his help in putting together 
today's hearing and thank the Chair and Ranking Member for 
their cooperation.
    We have 11 bills that we are going to hear today that are 
under the jurisdiction of our subcommittee. We will have an 
opportunity for the sponsors to explain their bills and make 
their statements. We then have representatives of the 
Administration who are here and also outside interest groups 
who are interested in some of these bills.
    We welcome all of your comments. We would ask, without 
objection, that your written statements will all be made a part 
of the record.
    Let me first state this is the way we should proceed on 
legislation pending before the Congress. We should have an 
opportunity for a full hearing and hope the committee can take 
advantage of the information that is made available. I know in 
a couple cases we have received written comments, and all that 
will be extremely helpful.
    I want to use my time to explain one of the 11 bills before 
the committee, S. 2560, the Service Resource Protection Act 
that I have sponsored at the suggestion of the agency.
    Currently, the U.S. Fish and Wildlife Service does not have 
explicit statutory authority to seek compensation from 
responsible parties that injure or destroy national wildlife 
refuge system or other Service resources. This is in contrast 
to the authority that the National Park Service has and 
exercises under the Park System Resource Protection Act and a 
similar authority to NOAA that it uses under the National 
Marine Sanctuaries Act.
    In other words, if someone causes harm, we can hold them 
responsible up to the amount of damage they have caused and 
that can be used to compensate and fix the damage that has been 
caused without additional burdens to the taxpayers of this 
country or the budgets of the different agencies.
    The Service Resource Protection Act gives similar authority 
to the U.S. Fish and Wildlife Service in regards to damages 
caused to our national wildlife refuge system. I know the U.S. 
Fish and Wildlife Service is going to be testifying so we will 
have an opportunity to get their views in that regard.
    Let me also point out that we have received, I believe, 
statements from two of the sponsors who will not be testifying 
personally, Senator Levin in regard to the Great Lakes 
Ecological and Economic Protection Act and Senator Murkowski in 
regard to a bill that amends the Migratory Bird Treaty Act.
    [The prepared statement of Senator Murkowski was not 
received at time of print. The prepared statement of Senator 
Levin follows:]

                     Statement of Hon. Carl Levin, 
                U.S. Senator from the State of Michigan

    Thank you, Chairman Cardin and Ranking Member Boozman, for 
holding this hearing on the Great Lakes Ecological and Economic 
Protection Act of 2013 (S. 1232), which would help restore and 
protect the Great Lakes, the largest source of surface 
freshwater on the planet. Senator Kirk and I, as co-chairs of 
the Senate Great Lakes Task Force, introduced this bill to 
target the most significant problems facing the Great Lakes and 
ensure that we implement these projects cost effectively. I 
want to thank the other eight Senators who cosponsored the 
bill, in particular Senator Gillibrand, who is a member of this 
subcommittee. I am also pleased that Congressman Joyce is the 
sponsor of a companion measure in the House of Representatives, 
which has 23 bipartisan cosponsors.
    The Great Lakes are one of the world's great treasures, 
providing drinking water to more than 40 million people; 
supporting 1.5 million U.S. jobs and $62 billion in wages; 
transporting critical supplies for manufacturing, electricity 
generation and food for the world; and supporting the region's 
$4.6 trillion economy.
    The Great Lakes brought industrial and natural resource 
development to the region which resulted in tremendous economic 
development and population growth. This development, however, 
also resulted in toxic substances polluting the waters and 
sediments, untreated wastewater threatening public health, and 
polluted runoff choking habitats and killing aquatic life.
    The Great Lakes Ecological and Economic Protection Act (S. 
1232), also known as GLEEPA, would tackle problems from past 
pollution and protect the lakes from current and future 
threats. GLEEPA would formally authorize the Great Lakes 
Restoration Initiative (GLRI), an inter-agency program that 
President Obama launched in 2009 to implement a regional 
collaboration strategy developed in 2005 by about 1,500 
stakeholder participants. This collaborative process was formed 
through an Executive Order by President Bush. The history of 
the restoration strategy clearly shows the work of restoring 
and protecting the Great Lakes is founded on a plan that 
reflects a broad range of viewpoints and has strong bipartisan 
support. It is critical that this collaborative strategy guide 
restoration of the Great Lakes because the region encompasses 
not only eight States, but also two countries. This process 
will also help ensure that progress can be made over the long 
term, as clean up of decades of pollution will take time.
    GLEEPA would focus Federal resources on the areas of 
highest priority identified in the collaborative plan, which 
would be further refined as new science and information become 
available. While the GLRI is broadly authorized in the Clean 
Water Act, passing this legislation would help ensure the 
program has clear congressional direction and goals, is results 
driven and transparent, and implements the most cost effective 
solutions. The bill would also formally establish the Great 
Lakes Advisory Board to provide advice and recommendations 
concerning restoration and protection. The board would reflect 
many different viewpoints, including from local, State and 
tribal governments; environmental, agricultural, and business 
organizations; hunters and anglers; and academia. Finally, the 
bill would formally establish a 10-member interagency task 
force to coordinate restoration efforts, ensure projects are 
not duplicated and that they use existing successful programs. 
GLEEPA also would accelerate progress toward the goals of the 
Great Lakes Water Quality Agreement, a formal agreement between 
the U.S. and Canadian governments establishing shared goals for 
protecting and improving water quality of the Great Lakes.
    The GLRI has achieved real progress: clean up of more than 
1.3 million cubic yards of contaminated sediment; control of 
the destructive sea lamprey and restoration of sturgeon, trout 
and other important fish species; construction of barriers to 
prevent an invasion by destructive Asian carp and planning for 
additional measures to keep these fish out of the Lakes; and 
prevention of precious Great Lakes water diversions through the 
Great Lakes Compact. GLEEPA would help ensure that progress 
continues to be made using a solid framework for achieving 
measurable and outcome-based results.
    The Great Lakes are precious and irreplaceable. As 
temporary stewards of this invaluable resource, we must do all 
we can to restore and protect the Great Lakes for the millions 
of people who depend on them today and the millions more who 
will in the future. Thank you for holding this hearing, and I 
hope you will soon advance this bill to the full Senate.

    Senator Cardin. With that, let me recognize Senator 
Boozman.
    Senator Boozman. Thank you, Mr. Chairman. Thank you for 
holding this very, very important hearing as we discuss these 
various bills. I agree with you totally that this is the right 
way to do it, to have the witnesses so that we can discuss and 
see how we can improve the ideas being brought forward.
    I ask unanimous consent that my full statement be placed in 
the record.
    Senator Cardin. Without objection.
    Senator Boozman. I am so excited about this first panel 
that in the interest of time, I will do that. I yield back.
    [The prepared statement of Senator Boozman was not received 
at time of print.]
    Senator Cardin. We are very pleased to have three of our 
colleagues here today, all who have brought forward legislation 
we are hearing today. We will start with Senator Blumenthal, 
the principal sponsor of S. 1381, the Big Cats and Public 
Safety Protection Act.
    Senator Blumenthal.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
           U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Thank you very much, Senator Cardin.
    Mr. Chairman and members of the subcommittee here today, I 
want to thank you for the opportunity to address the 
subcommittee and speak about the Big Cats and Public Safety 
Protection Act and thank the co-sponsors who have introduced 
this bill with me.
    It is really a common sense solution to the serious dangers 
associated with private ownership of wild animals such as 
lions, tigers, leopards, cheetahs and more.
    Incredibly, even in the 21st century, even in the United 
States of America, this problem is real and serious. There are 
at least 10,000 big cats currently in private ownership around 
the country. In fact, there are more captive tigers in the 
United States than there are in the wild. Think about it: more 
captive tigers in the United States than in the wild.
    Some people buy them as wild animals, as cubs, thinking it 
would be fun to own an exotic pet like a tiger or a lion or a 
leopard but as soon as they begin to mature, private owners 
quickly find themselves in over their heads, literally and 
figuratively, and frequently subject these animals to utterly 
inhumane living conditions.
    Other people purchase big cats to use in traveling roadside 
zoos which charge fees to allow unwitting members of the public 
to take pictures with the animals, they are literally side by 
side with the animals, dangerously so. The exhibitors of these 
roadside zoos often use abusive training techniques in an 
attempt to prevent the animals from attacking any of the 
customers.
    No matter what the setting, private ownership of big cats 
poses gravely serious safety threats for anyone who happens to 
live in the surrounding community.
    Over the last two decades, captive big cats have killed 24 
people in the United States, 24 people killed by these big cats 
including 5 children. In addition, these cats have mauled and 
injured over 200 people.
    In short, private ownership and breeding of big cats has 
been a very, very serious problem for law enforcement officers 
and first responders. Brave men and women who go to the scene 
of a big cat incident have to put their lives on the line. They 
are not always trained to deal with them and they often lack 
the equipment necessary to properly deal with them.
    In fact, I have talked to members of the firefighting 
community as well as the law enforcement community who 
frequently go to homes that may be on fire or dealing with the 
threat of fire and find these animals there without even 
knowing what they are going to encounter.
    Conservation experts overwhelmingly agree that breeding and 
possessing an animal outside of its natural environment is not 
an example of conservation. These wild animals are just what 
are called, wild. They are wild and people should respect the 
expertise that is required to deal with them and they should 
not be allowed to own them.
    My legislation would prohibit private possession and 
breeding of big cats, but it is all too common sense which 
requires this bill and also requires reasonable exceptions for 
properly accredited zoos, State colleges and universities and 
traveling circuses that do not allow public handling of these 
wild animals.
    The bill would also allow those who currently own big cats 
to keep them as long as they register the animals with the 
United States Department of Agriculture. In other words, there 
is a kind of grandfather clause.
    I urge the members of this subcommittee to support this 
legislation so that we can put an end to inhumane, dangerous 
and wasteful private ownership of big cats.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you very much,
    I am going to recognize Senator Gillibrand. I apologize for 
overlooking you for your opening statement.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. I was grateful to hear Senator 
Blumenthal's very interesting legislation that I will support.
    Chairman Cardin, Ranking Member Boozman, thank you for 
holding this hearing and for including several pieces of 
legislation that are vital not just to New York but all across 
our country.
    I am particularly pleased that our subcommittee was able to 
include S. 1153, the Invasive Fish and Wildlife Prevention Act, 
on the list of legislation to be discussed today. I have worked 
closely on this legislation with Congresswoman Louise Slaughter 
in response to the real and severe threats that my State of New 
York faces with regard to invasive species as well as Senator 
Nelson who knows all too well the harm that invasives can cause 
through Florida's recent experiences battling the Burmese 
python in the Everglades.
    Whether it is the Asian clam in Lake George, zebra mussels 
in the Finger Lakes or the imminent danger of Asian carp in the 
Great Lakes, New York's water bodies are affected by aquatic 
invasive species that threaten our regional economies, disrupt 
the balance of our ecosystems and cost our local communities 
scarce resources to control their spread.
    Across the United States, invasive species cost more than 
$120 billion each year and result in more than $13 billion in 
damage to agriculture annually. Those numbers will only 
continue to grow if additional species that could cause harm 
are allowed to be imported into the United States.
    Currently, 236 species of animals are listed as injurious 
under the Lacey Act, including zebra mussels. However, despite 
the fact that since 2010, the Asian clam has caused harm to 
Lake George, that species is not listed. It makes no sense, and 
we have to improve the Federal Government's ability to quickly 
respond to these threats.
    Once a species is listed as injurious, it cannot be 
imported into the United States. However, the current process 
can take 4 years to complete, giving an invasive species more 
time to establish itself and damage our ecosystems.
    To fix this problem, I have introduced the Invasive Fish 
and Wildlife Prevention Act to strengthen the U.S. Fish and 
Wildlife Service's ability to proactively address the threat of 
invasive species by requiring an analysis to determine whether 
any non-native animal species have the potential to become 
invasive and harmful to the U.S. before they can be imported or 
enter interstate commerce.
    Specifically, the bill would establish an injurious species 
listing process based on the clear risk assessment and risk 
determination process. It would also allow the Fish and 
Wildlife Service to take emergency actions to ban non-native 
wildlife like the Asian clam and others that pose an imminent 
threat to our waterways and other ecosystems.
    I believe this is a common sense approach to prevent the 
further spread of invasive species and look forward to 
continuing to work with my colleagues in the Senate to advance 
the legislation.
    I would also like to briefly speak on another piece of 
legislation I have co-sponsored, the Great Lakes Ecological and 
Economic Protection Action of 2014. As the only Senator on the 
EPW who represents a Great Lakes State, I know firsthand how 
important the Great Lakes restoration initiative has been to my 
State and the entire region.
    The Great Lakes face a number of challenges from Asian carp 
to blue-green algae. Ensuring that we have a long term Federal 
commitment to restoring and protecting the environmental 
quality of the Great Lakes is critical to regional economies 
that rely on the lakes for fishing, tourism and other economic 
activity.
    Thank you, Mr. Chairman. I look forward to the testimony of 
our other witnesses today.
    Senator Cardin. Thank you.
    Senator Kirk. I believe you are here in regard to S. 571.

             OPENING STATEMENT OF HON. MARK KIRK, 
            U.S. SENATOR FROM THE STATE OF ILLINOIS

    Senator Kirk. S. 571, that would propose a total ban on 
sewage dumping in the Great Lakes is already backed by 
Stabenow, Levin, Durbin and Kirk.
    This chart shows the dirty dozen dumpers in the Great Lakes 
area. Let me point to some of the details. The worse dumper in 
the Great Lakes area is the city of Detroit which far eclipses 
most of the other cities.
    Just to get further support from my colleagues for Buffalo, 
this legislation also has a fining mechanism that would refund 
to the publicly owned sewage treatment systems so that they can 
clean up their act, a virtual cycle of stopping.
    The reason why Senators from various States should care 
about this is the Great Lakes are the source of 95 percent of 
the fresh water in the United States, and 30 million Americans 
will pull their drinking water from the Great Lakes, including 
a few Canucks in Canada. That is why I think we should treat 
this ecosystem with the reverence that it should enjoy and make 
sure we ban sewage dumping in the Great Lakes.
    I would say it is really good bipartisan legislation which 
we have put together with several members of the current Senate 
onboard. I introduced this in the House when I was a House 
member. We had the current Mayor of Chicago, Rahm Emanuel, when 
he was a Congressman, onboard.
    With that, I would conclude my remarks and urge your 
support to rapidly pass this legislation out of the 
subcommittee to make sure we protect this central ecosystem of 
the United States.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Kirk follows:]

                     Statement of Hon. Mark Kirk, 
                U.S. Senator from the State of Illinois

    Chairman Cardin, Ranking Member Boozman, and members of the 
subcommittee, thank you for allowing me to testify this 
afternoon on critical legislation that would improve water 
quality and protect the Great Lakes. As the largest source of 
surface fresh water in the world, the Great Lakes provide food, 
recreation, and drinking water for more than 30 million 
Americans. Yet year after year, our most precious natural 
resource continues to be harmed by billions of gallons of 
sewage that are discharged into the lakes, degrading water 
quality, threatening public health and safety, and causing 
beach closures across the Great Lakes.
    Home to more than 200 globally unique species of plants and 
animals, the Great Lakes are an invaluable ecological treasure 
that account for 84 percent of the surface fresh water in North 
America. With more than 10,000 miles of coastline, the Great 
Lakes offer unmatched recreational and tourism opportunities, 
attracting businesses and families looking to relocate and 
drawing millions of tourists to their shores every year. The 
Great Lakes support an estimated 1.5 million American jobs, 
generate $62 billion in annual wages and transport 
approximately 145 million tons of commodities across the 
system's channels.
    Yet despite their great size and numerous benefits, the 
lakes are under siege. More than 24 billion gallons of 
untreated waste and stormwater are diverted into the Great 
Lakes each year, contaminating the water supply with harmful 
toxins and pathogens, like E. coli. While cities across the 
Great Lakes have taken strides to reduce the amount of sewage 
discharged into the lakes and their tributaries, not enough is 
being done to put an end to this harmful practice. For example, 
in 2011, Detroit, Michigan, dumped 6.9 billion gallons of 
untreated and partially treated sewage into the lakes, and Fort 
Wayne, Indiana, dumped another 7.5 billion gallons of combined 
sewage into the tributaries of Lake Erie. Closer to my home in 
Illinois, 2.3 billion gallons were discharged into Lake 
Michigan from the Chicagoland area.
    Sewage pollution is devastating to the region's tourism 
sector. It contributes to hundreds of beach closures and 
advisories across the Great Lakes annually and negatively 
impacts the cash strapped budgets of our local communities. 
According to the Illinois Department of Public Health, the 
number of beach advisories and closings on the Lake Michigan 
shoreline in Illinois alone has remained between 300-600 a year 
over the last 5 years. In addition to the negative impacts on 
the environment and public health, a University of Chicago 
study showed swim bans at Chicago's beaches due to E. coli 
levels cost the local economy $2.4 million in lost revenue 
every year. This is unacceptable.
    The path forward is clear. To protect the source of 
drinking water for millions of Americans and the economic 
vitality of the region, we must work together to put an end to 
the billions of gallons of municipal sewage that are discharged 
into our lakes. For these reasons, I urge this committee to 
consider S. 571, The Great Lakes Water Protection Act, 
bipartisan legislation which I introduced with Senator Richard 
Durbin (D-IL). This legislation would set a date certain to end 
sewage dumping in the Great Lakes and would increase the fines 
for dumping to $100,000 per violation, per day, which are 
currently capped at $37,500. S. 571 gives municipalities 20 
years to make the necessary upgrades to their sewer systems and 
creates a level playing field for all communities throughout 
the Great Lakes region. The fines collected would be funneled 
into a new Great Lakes clean up fund within the Clean Water 
State Revolving Fund to generate financial resources for the 
Great Lakes States to improve wastewater treatment options, 
habitat protection and wastewater treatment systems.
    This bill also enhances transparency and public awareness 
requirements surrounding overflow events, requiring rapid 
public notification about when an overflow event occurs, the 
total volume that was released, and where it took place. This 
gives individuals, businesses, and local municipal planners the 
tools they need to protect public health and ensure that beach 
closures and advisories reflect the most accurate and up-to-
date information.
    I am committed to helping improve water quality, wastewater 
infrastructure, and ensuring our existing Federal policies 
effectively prevent the negative impacts of sewage pollution on 
the Great Lakes ecosystem. I appreciate the committee's 
attention to this issue, and I hope my colleagues will support 
me in ensuring this important resource becomes free from the 
threat of sewage pollution and is preserved for future 
generations.

    Senator Cardin. Thank you very much, Senator Kirk.
    Senator Heller on S. 2530.

            OPENING STATEMENT OF HON. DEAN HELLER, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Heller. Thank you, Chairman Cardin, Ranking Member 
Boozman and the rest of the committee. Thank you very much for 
having this hearing today and allowing me to testify on this 
particular bill, the Protecting Lakes Against Quaggas Act. I 
was looking for a sexier name for this but I couldn't come up 
with one so we will stick with the Protecting Lakes Against 
Quaggas Act.
    I appreciate the opportunity to discuss Nevada's quagga 
mussel efforts and my bill which can be an important part of a 
nationwide solution.
    Quagga mussels are freshwater mollusks with razor sharp 
shells. Each mussel is usually no bigger than a man's 
thumbnail, but they wreak havoc on water bodies and infiltrate 
by multiplying at an alarming rate clogging water pipelines, 
powerplant cooling systems, marine equipment, damaging boats, 
water infrastructure and native wildlife.
    They were first introduced to the Great Lakes in the mid-
1980s and have since spread through a boat to Lake Mead in 
southern Nevada, a heavily recreated reservoir on the Nevada-
Arizona border that also provides over 90 percent of the 
southern Nevada water supply.
    Until January 2007, when they first turned up at Lake Mead, 
quaggas had never been found west of the Mississippi River. 
Since, they have been detected at Lahontan Reservoir, Rye Patch 
Reservoir, Lake Tahoe and many other western lakes and 
reservoirs.
    The only way for these mussels to spread from lake to lake 
is by hitchhiking on recreational boats. Preventing their 
spread sounds easy. All it takes are boat inspections to make 
sure they are not attached to boat holds or hidden in the bilge 
water.
    That work is difficult and expensive. Quagga and zebra 
mussels have cost more in prevention and control than any other 
aquatic species to invade the United States, costing an 
estimated $5 billion in prevention and control efforts since 
1987. The Bureau of Reclamation alone spends $1 million 
annually on quagga mussel control just at Hoover Dam.
    A lot of great work is currently being done on the ground 
to prevent the spread of quagga but the problem is not going 
away. Just last week, a Lake Tahoe watercraft inspector 
inspected a boat with quagga mussels and had an unidentified 
snail species hidden in the anchor locker.
    The boat, coming from Lake Mead, was inspected at the 
Spooner Summit Inspection Station on Highway 50 in Nevada, 
fully decontaminated and ultimately cleared to launch on Lake 
Tahoe.
    Since the start of the summer boating season May 2014, 
inspectors have intercepted 24 boats containing invasive 
species bound for the waters of Lake Tahoe. Eight of these 
boats contained invasive mussels, and another four boats were 
carrying several different types of snail species.
    Over the 4th of July holiday, more than 725 boats were 
screened for invasive species at four inspection stations 
surrounding the lake, a 17 percent increase from 2013.
    The Protecting Lakes Against Quaggas Act is a 
straightforward, common sense proposal that will assist ongoing 
efforts to stop the spread of these destructive invasive 
species. It adds the quagga mussel to the National List of 
Invasive Species covered under the Lacey Act. Currently the 
zebra mussel is listed, but the quagga is not.
    A listing will allow for increased inspection of boats 
crossing State lines and entering Federal lands to further 
prevent quagga hitchhiking.
    My bill garners support from a diverse range of 
stakeholders including, but not limited to, the Western 
Governors Association, the Colorado River Energy Distributors 
Association, Tahoe Regional Planning Agency, National Parks 
Conservation Association and the National Wildlife Federation.
    Additionally, friend and fellow Nevadan, Dr. Joe Heck 
introduced similar legislation last year in the House that has 
garnered 22 Republican and Democrat co-sponsors across the 
political spectrum, many from the affected States.
    Before I conclude, I would like to thank the Nevada 
Department of Wildlife Director, Tony Wasley, for being here 
today. Tony is a qualified leader with a distinguished 17-year 
NDW career.
    He was appointed by Governor Brian Sandoval last April. 
Since, he has done a tremendous job leading our State's efforts 
to eliminate aquatic invasive species as well as managing 
Nevada's statewide game and conservation projects for species 
such as sage grouse, mule deer, elk and bighorn sheep.
    Nevada is fortunate to have Tony's leadership at NDW, and I 
am greatly appreciative of his coming to DC to testify in 
support of this bill. He and I know firsthand that providing 
our local authorities more tools to prevent aquatic travel will 
help stop the spread of these pests and potentially save 
billions of dollars in future maintenance costs.
    Thank you again for the opportunity to testify before the 
subcommittee today on this important Nevada priority.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you. I thank all of our colleagues 
for being here today.
    Senator Kirk. Thank you, Mr. Chairman. Sorry I didn't bring 
any charts.
    Senator Cardin. You did just fine.
    You all are excused to carry on your business.
    Let me recognize Senator Whitehouse.
    Senator Whitehouse. With all those wild cats, it would have 
been quite a good chart.
    Senator Kirk. I thought about it.
    Senator Cardin. Senator Whitehouse will discuss S. 1202.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. I would be delighted.
    The acronym is the SAFE Act, which stands for Safeguarding 
America's Future and the Environment. This was a piece of 
legislation developed in an east-west-coastal-mountain 
coalition with Senator Max Baucus when he was here.
    As we prepared it, we asked the Government Accountability 
Office for a report on the adaptation efforts by the Federal 
Government within our natural resource agencies. The report was 
pretty stark and explained the vulnerability of some of these 
vital natural resources from rising temperatures from worsening 
drought, wildfire, rising sea levels, shrinking snow coverage 
and flow.
    GAO previously noted that as the manager of vast lands and 
natural resources, the Federal Government has real fiscal risk 
from climate change through these properties and manages nearly 
30 percent of land in the United States, in addition to the 
marine resources that run 200 miles from our shore.
    The GAO report found that the status quo management and 
planning will not be good enough: ``Natural resource management 
has historically been based on the idea of maintaining current 
environmental conditions or restoring species and habitats to 
some desired former condition.''
    As the climate continues to change, this approach will 
become increasingly more difficult, if not impossible, to 
maintain. The SAFE Act requires implementation of the National 
Fish, Wildlife and Plants Adaptation Strategy and asks that the 
Federal national resource agencies, NOAA, the National Park 
Service, U.S. Fish and Wildlife Service, BLM, to complete 
coordinated climate change adaptation plans.
    This is something the Administration is already moving 
forward on, so the SAFE Act would codify these efforts and also 
support smart actions taking place at the local level.
    We had an Oversight Subcommittee hearing, Mr. Chairman, on 
natural resource adaptation in February. One of the witnesses 
was Rhode Island Commercial Fisherman's Association President 
Chris Brown, who testified about the toll that climate change 
is already taking on his industry: ``I fish on a much different 
ocean today than when I first started fishing with my 
grandfather as a boy in the mid-1960s. Regularly caught now in 
Rhode Island are the species of croaker, grouper, cobia, drum 
and tarpon. My grandfather never saw a single one of these in 
his entire life as a fisherman.''
    The wild-caught fisheries of the northeast may ultimately 
prove to be the coal miner's canary for this Nation as we 
grapple with the issue of climate change. A reconsideration of 
strategy is called for given the enormous chasm between what we 
have endured and what we have gained.
    Our oceans remain ground zero for damage from carbon 
pollution. They are warming. That is easily measurable with 
things like thermometers, and you don't have to be a 
theoretician to understand that. They are rising, also easily 
measurable at tide gauges with something that is not much more 
complicated than a yardstick, not much room for dissent about 
that, I would think.
    They are becoming more acidic, something that children 
measure in their aquariums. It is not that complicated. Without 
a doubt, the changes we are seeing put the jobs and livelihoods 
of our fishing community at risk.
    Those same changes we also see affecting forest health, 
wildlife habitat and species migration which in turn affects 
the outdoor recreation and hunting industries which account for 
nearly $650 billion in consumer spending each year.
    To protect these vital natural resources and help them 
adapt in the face of climate change, I would hope we can move 
this bill forward. It would be a step toward protecting our 
economy and our outdoors way of life.
    Thank you.
    [The prepared statement of Senator Whitehouse follows:]

                 Statement of Hon. Sheldon Whitehouse, 
              U.S. Senator from the State of Rhode Island

    Thank you, Chairman Cardin, for holding this legislative 
hearing to discuss a number of bills on which the committee may 
have the opportunity to vote in the weeks and months ahead.
    One of the bills on the agenda today is S. 1202, the 
Safeguarding America's Future and the Environment Act--the SAFE 
Act, for short. This bill provides local communities with 
better tools to help our natural resources adapt to climate 
change. These resources help keep our air and water clean, 
sustain our economy, and provide a deep-seated sense of place.
    I introduced this bill with then-Senator and now-Ambassador 
Max Baucus from Montana, with whom I was proud to work on this 
issue. He and I also requested a GAO report on adaptation 
efforts at our natural resource management agencies. The report 
explains just how vulnerable America's natural resources are to 
the changes we're seeing in the Earth's climate, including 
rising temperatures, worsening drought and wildfire, rising sea 
levels, and shrinking snow cover.
    GAO previously noted that as the manager of vast lands and 
natural resources, the Federal Government is at great fiscal 
risk from climate change. The Federal Government manages nearly 
30 percent of land in the United States as well as marine 
resources, like fisheries, in our exclusive economic zone that 
extends 200 miles from our shore.
    The GAO report found that status quo management and 
planning will not be good enough: it says, ``natural resource 
management has historically been based on the idea of 
maintaining current environmental conditions or restoring 
species and habitats to some desired former condition. As the 
climate continues to change, this approach . . . will become 
increasingly more difficult if not impossible to maintain.''
    So, the SAFE Act requires implementation of the National 
Fish, Wildlife, and Plants Adaptation strategy and asks Federal 
natural resource agencies--such as the National Oceanic and 
Atmospheric Administration, National Park Service, U.S. Fish 
and Wildlife Service, and Bureau of Land Management--to 
complete coordinated climate change adaptation plans.
    The Administration is already moving forward on this front. 
The President's Climate Action Plan includes sensible steps to 
prepare us for the effects of climate change. An Executive 
Order issued in November further focused the Administration's 
adaptation strategy. The SAFE Act would codify these efforts 
and support smart actions at the local level.
    At an Oversight Subcommittee hearing I chaired on natural 
resource adaptation in February, witnesses discussed the need 
for strategic adaptation planning in the face of climate 
change. Rhode Island Commercial Fishermen's Association 
President Chris Brown testified about the toll climate change 
is already taking on his industry. He put it like this: ``I 
fish on a much different ocean today than when I first started 
fishing with my grandfather as a boy in the mid-1960s . . . 
Regularly caught now in Rhode Island are the species of 
croaker, grouper, cobia, drum, and tarpon. My grandfather never 
saw a single one of these in his entire life as a fisherman.''
    He continued: ``The wild caught fisheries of the Northeast 
may ultimately prove to be the `coal miner's canary' for this 
Nation as we grapple with the issue of climate change. A 
reconsideration of strategy is called for given the enormous 
chasm between what we have endured and what we have gained.''
    Our oceans are ground zero for damage from carbon 
pollution. They are warming, they are rising, and they are 
becoming more acidic. These are measurements, not theories or 
projections. Without a doubt, these drastic changes put the 
jobs and livelihoods of fishermen at risk.
    Likewise, the changes we are seeing in forest health, 
wildlife habitat, and species migration patterns affect the 
outdoor recreation and hunting industries, which account for 
nearly $650 billion in consumer spending each year.
    America's natural resources--our rivers and bays, our 
forests and marshes, our fish and animals--are our birthright 
and our legacy. To protect them and help them adapt in the face 
of climate change is to protect our economy and way of life. I 
appreciate the committee's consideration of this important 
legislation.
    Thank you.

    Senator Cardin. Thank you, Senator Whitehouse. We 
appreciate your leadership on this issue. You have been a 
strong leader in the areas of adaptation. We appreciate this 
legislation.
    Senator Whitehouse. If I may ask unanimous consent to have 
a letter from the groups that support this legislation added to 
the record.
    I would point out that Senator Kirk's display of Lake Erie 
omitted one salient fact which was the Battle of Lake Erie was 
won by a Rhode Islander, Oliver Hazzard Perry, in the War of 
1812.
    Senator Kirk. I am sure it was an oversight.
    Senator Cardin. Without objection, the statements will be 
made a part of the record but not the correction of the record. 
We need Senator Kirk here in order to approve that.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Cardin. We will now go to our panel. Mike Shapiro 
is the Principal Deputy Assistant Administrator for the Office 
of Water at the Environmental Protection Agency. Mr. Shapiro 
has been at the EPA since 1980 working and surviving through 
Democrat and Republican administrations. He has served as 
Deputy Assistant Administrator since 2002.
    Steve Guertin is the Policy Director of the U.S. Fish and 
Wildlife Service. Steve is a long-time public servant with the 
Service, playing key leadership roles in the Service's efforts 
to help fish, wildlife and plants adapt to the effects of 
landscape scale challenges, including climate change, energy 
development, water scarcity, fire and invasive species.
    Welcome to both of you. As is the custom of our committee, 
your full statements, without objection, will be made a part of 
the record. You may proceed as you wish, starting with Mr. 
Shapiro.

     STATEMENT OF MIKE SHAPIRO, PRINCIPAL DEPUTY ASSISTANT 
 ADMINISTRATOR, OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Shapiro. Thank you very much. Good afternoon, Chairman 
Cardin, Ranking Member Boozman and members of the subcommittee.
    Thank you for the opportunity to discuss EPA's work to 
protect our Nation's waters and several pieces of proposed 
legislation that would impact our agency's programs.
    The Administration has not taken a position on these pieces 
of legislation, but I am pleased to briefly describe EPA's 
current work relevant to the issues that four of these bills 
would address. I have provided additional detail in my written 
testimony.
    Addressing the Great Lakes first, it is tempting to think 
that protecting and restoring the Great Lakes is a regional 
issue. It is anything but that. With some 95 percent of the 
Nation's and 20 percent of the Earth's fresh water, protecting 
and restoring the Great Lakes is a national and even an 
international imperative.
    The EPA manages the Great Lakes Interagency Task Force of 
11 Federal departments per Presidential Executive Order. 
Chaired by EPA Administrator McCarthy, the task force 
coordinates the Great Lakes Restoration Initiative, GLRI.
    In its most recent report to the President and Congress, 
the GLRI is meeting or exceeding most of its annual measures of 
progress for Great Lakes restoration. EPA strongly supports the 
goals of S. 1232, the Great Lakes Ecological and Economic 
Protection Act which would specifically authorize GLRI.
    We also agree with the purpose of S. 571, the Great Lakes 
Water Protection Act, but would be interested to work with 
committee staff on technical issues as they move forward with 
this bill.
    Second, dealing with water and energy efficiency, too often 
we take for granted a system that provides clean and safe water 
from the drinking water that automatically appears when we turn 
on our taps or take a shower to the water found in our local 
watersheds where we live, work and play.
    Water is not a limitless resource. As we all know, many 
communities across the Nation are facing difficult challenges 
in meeting their water resource needs. The EPA is working to 
raise awareness and foster the understanding that water is a 
valuable resource that should be used wisely.
    For example, in 2006, we launched the Water Sense Program, 
an innovative partnership that helps American consumers, 
businesses and governments make smart water choices by looking 
for the water sense label. Through 2013, we estimate the 
program has saved more than 757 billion gallons of water, an 
amount equal to the water needed to supply all the homes in the 
United States for 26 days.
    S. 2225 would create a Smart Water Resource Management 
Pilot Program managed by the Department of Energy. This program 
would award grants for innovative solutions to increase water 
and energy efficiency.
    The EPA generally supports further efforts to promote 
energy and water efficiency and we have collaborated with the 
Department of Energy in examining this issue. We would defer to 
DOE on the specifics of the legislation.
    Third is climate adaptation and water. Water resources are 
important to both society and ecosystems. We depend on a 
reliable, clean supply of drinking water to sustain our health. 
We also need water for agriculture, navigation, recreation and 
manufacturing.
    A changing climate may result in water shortages in some 
areas and increased runoff, flooding or sea level rises, as 
Senator Whitehouse described, and other areas.
    The EPA recently released a policy statement on climate 
change adaptation and each of the major EPA programs and 
regional offices have developed more detailed climate change 
adaptation implementation plans. In 2012, the EPA's National 
Water Program developed a climate change strategy to guide our 
ongoing work in coordination with our State, tribal and local 
partners.
    S. 1202 would create an Interagency Natural Resources 
Climate Change Adaptation Panel which would include the EPA 
Administrator to help coordinate development and implementation 
of the National Fish, Wildlife and Plants Climate Adaptation 
Strategy.
    If this bill were enacted, the EPA would continue its work 
with other Federal agencies on the strategy's implementation. 
We would look forward to doing so.
    Thank you again for the opportunity to discuss the EPA's 
work in these areas and the potential impacts of the 
legislation you are considering today. I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Shapiro follows:]
    
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cardin. Thank you, Mr. Shapiro.
    Mr. Guertin.

 STATEMENT OF STEVE GUERTIN, DEPUTY DIRECTOR FOR POLICY, U.S. 
                   FISH AND WILDLIFE SERVICE

    Mr. Guertin. Chairman Cardin, Ranking Member Boozman and 
members of the subcommittee, I am Steve Guertin, Deputy 
Director for the U.S. Fish and Wildlife Service. Thank you for 
the opportunity to testify on bills that address a range of 
service responsibilities to conserve and protect America's fish 
and wildlife for the benefit of our citizens.
    The hearing today comes at a time when the Nation's living 
resources are impacted by forces acting upon larger landscapes 
and ecosystems such as habit fragmentation or loss due to land 
use changes, invasive species, fish and wildlife disease, 
contamination, wildfires, floods and drought, all exacerbated 
by climate change.
    Mr. Chairman, the Service greatly appreciates your 
leadership on the United States Fish and Wildlife Resource 
Protection Act. We strongly support this legislation which 
mirrors the Administration's proposed draft bill.
    When national wildlife refuge lands and national fish 
hatcheries are damaged or injured, the taxpayer bears the cost 
of restoration. We currently do not have statutory authority to 
seek compensation from responsible parties who injure or 
destroy Service resources and we are unable to then apply 
compensation to directly address those damages.
    Therefore, the cost of restoration either comes from 
appropriated dollars or is added to the operations and 
maintenance project list to be addressed when funds are 
available down the road.
    The Resource and Protection Act provides a much needed 
remedy to this situation. It would authorize the Service to 
seek compensation from responsible parties that injure or 
destroy national wildlife refuge system or other Service 
resources. This legislation is one of the Service's top 
legislative priorities and we look forward to working with you, 
Mr. Chairman, and the subcommittee to enact this bill.
    Senator Whitehouse, the Service applauds your efforts in 
introducing the SAFE Act. We are very supportive of the need 
for and intent of this legislation and greatly appreciate the 
subcommittee's continued work to highlight the impacts of 
climate change on natural resources and the need for adaptation 
measures.
    We also recognize Senator Gillibrand's efforts, and we 
support the purpose of the Invasive Fish and Wildlife 
Protection Act. Adverse impacts from invasive species are among 
the most significant challenges facing the conservation of 
native fish and wildlife. Preventing the introduction and 
spread of these invasive species is the most cost effective 
approach to eliminating or reducing these threats.
    Our written testimony provides additional information on 
these and other bills you are considering today. Many of the 
bills that are the subject of the hearing today are important 
steps in natural resource conservation.
    In addition to these efforts already underway, the Fish and 
Wildlife Service believes there is much work to be accomplished 
on the legislative front in the conservation of our Nation's 
fish and wildlife.
    Among the Service's other top priorities are the 
Administration's proposal for full and permanent funding of the 
Land and Water Conservation Fund, the authority to increase the 
price of the Federal Migratory Bird Hunting and Conservation 
Stamp, known as the Duck Stamp, and reauthorization of the 
North American Wetlands Conservation Act to leverage funds for 
projects that conserve and protect water fowl habitat.
    These legislative actions are critically important to 
conserving, protecting and restoring habitat for trust species. 
These actions would also support the U.S. economy because of 
Nation's natural resources are among our most valuable economic 
assets.
    We are happy to answer any questions you have today and 
look forward to working with the subcommittee on these bills.
    Thank you.
    [The prepared statement of Mr. Guertin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
    Senator Cardin. Let me thank both of you for your service.
    Mr. Guertin, let me start in regard to the legislation I 
have authored. I fully recognize the need for you to have the 
authority to go after those who have damaged our refuges and to 
be able to get the compensation you need in order to restore 
and repair what has been done.
    We do allow legitimate use of our refuges for hunting and 
recreation and so forth, and there is at least some concern 
that this authority could be used in a way that would be 
intimidating to lawful users of the services.
    Can you give us some assurance as to how this authority 
would be screened to make sure it is only used where there is 
culpable activity that would warrant such action?
    Mr. Guertin. We can fully assure you that if enacted, we 
would only use this legislation to seek restitution from 
responsible parties who injured natural resources. There is no 
intention to use this to do anything to detract or take away 
the right of Americans to hunt and fish on open national 
wildlife refuges and otherwise enjoy public access to these 
lands.
    Senator Cardin. Thank you for that.
    Let me address invasive species for one moment because 
there are several bills that deal with that. Senator 
Gillibrand's proposal that would set up a reviewing process 
where you could deal with changing what is permitted to be 
imported into the United States, do you have comments in regard 
to that specific approach in regard to adding additional 
species that could be subject to import restrictions?
    Mr. Guertin. We are supportive of the overall policy intent 
of the Senator's proposed legislation. We think that the idea 
of putting in place some risk screening concept or methodology 
to identify in Tier Category 1 and 2 threats to the U.S. would 
be critically important to an overall strategy.
    We are very interested right now in focusing our resources 
on further species coming to the North American continent and 
then our ongoing efforts to contain species once they do come 
into the North American continent.
    We are very interested in partnering with the Senator, her 
staff and your staff, Mr. Chairman, on some program 
implementation aspects of the bill which we think would make it 
easier for the Service and the State Fish and Wildlife agencies 
to implement.
    That would include stepping down some of the implementation 
ideas as well as looking at some of the exceptions that might 
be envisioned in the current version of the legislation.
    Senator Cardin. It would be helpful if you could get 
specific comments to us as soon as possible as far as 
legislative changes because I cannot speak for the Chairman of 
the committee, but I know the calendar is moving. There might 
be efforts made to move legislation as quickly as possible.
    Any specific comments you have about language, it would 
certainly be helpful to get it to the committee and to Senator 
Gillibrand obviously.
    Senator Blumenthal's proposal regarding the big cats, I 
didn't hear any specific reference to that in your 
presentation. Do you have comments regarding that specific 
bill?
    Mr. Guertin. Yes, Mr. Chairman. We support the overall 
intent of the legislation which would amend the Lacey Act by 
clarifying provisions of the underlying Captive Wildlife Safety 
Act which would prohibit individuals from breeding and 
possessing prohibited wildlife species.
    This would address the larger impact to public health and 
safety and we support the idea of grandfathering in those who 
already possess these animals.
    We would like to work with the Senator and the committee 
leadership on some of the exemptions that we think are applied 
a little too broadly. Certainly main accredited institutions, 
zoos, universities and other programs would be fine under the 
language but we would like to take a critical look at some of 
the potential exemptions that might fall under that.
    At the same time, we would like to work on other program 
implementation issues but we would be glad to set up a follow 
on staff level meeting to work through these kinds of program 
implementation issues, not policy level issues.
    Senator Cardin. Senator Heller's proposal dealing with the 
quagga mussel, do you have a view on that?
    Mr. Guertin. Senator, we do not oppose listing the quagga 
mussel as injurious under the Lacey Act. We do have some 
concerns about the vision in there which would exempt a lot of 
publicly managed waterways. As currently worded, we believe 
that might be too big of a blanket exemption.
    We know that the States are really leading the charge on 
combating quagga mussels and other invasive species. We 
recognize concerns from public water managers and others, but 
we think we need to sit down with folks to try and hammer out 
some way to address that.
    Because of that, we cannot currently support the 
legislation because it includes that exemption.
    Senator Cardin. The exemption is too broad in that bill?
    Mr. Guertin. Yes, sir.
    Senator Cardin. You have some concerns with Senator 
Blumenthal's bill, that the exemption may be too broad also, 
did I hear you correctly, some of the language in the Big Cats 
bill?
    Mr. Guertin. Yes, sir.
    Senator Cardin. You will try to get information and work 
with the sponsors on both of those bills? It would be helpful 
to us.
    In one example, we have legislation that would ease the 
restrictions related to Alaskan Native articles currently 
prohibited from sale, migratory bird parts. Do you have any 
advice to the committee on that?
    Mr. Guertin. Mr. Chairman, we are talking about the 
Migratory Bird Treaty Act which ratifies four international 
treaties that guide step-down provisions within each of the 
host countries to manage migratory birds.
    In looking at the language as written in the current bill, 
we believe there are some potential violations of the larger 
policy goals of those four international treaties and would 
like to take a look at that.
    We also think a way to get after this issue exists. That is 
using the ongoing leadership and work of the Alaska Migratory 
Bird Co-management Council which comprises representatives of 
the State of Alaska, Alaska Natives, Native corporations, as 
well as the Fish and Wildlife Service who are currently 
evaluating what kind of flexibility there might be, if any, 
under the Migratory Bird Treaty Act to allow Native American 
use in Alaska of some of these bird species.
    An interesting footnote to all of this is the only time the 
larger international treaties have been amended was with Canada 
and even then did not address the subsistence use of bird parts 
and things like that.
    We would like to sit down with the bill sponsors to look at 
that but urge the committee to allow the ongoing work of the 
commission in Alaska to potentially find a way forward on that 
situation as well.
    Senator Cardin. Thank you for your comments.
    Mr. Shapiro, in regard to Senator Kirk's bill, you 
indicated you had some technical issues with the way that bill 
was drafted. Can you get those comments to us as quickly as 
possible?
    Mr. Shapiro. We can provide specific comments. We may also 
want to discuss with the staff what we view as some lack of 
clarity in some of the provisions around the bypass portion of 
the bill. We would be happy to do that.
    Senator Cardin. Thank you.
    Senator Boozman.
    Senator Boozman. Thank you very much, Mr. Chairman.
    We appreciate both of you being here and also appreciate 
your hard work.
    Mr. Shapiro, in the absence of legislation, does the 
Administration lack the needed authority to carry out its Great 
Lakes Restoration Initiative?
    Mr. Shapiro. No, we continue to operate the Great Lakes 
Restoration Initiative under annual appropriations. The 
structure that has been set up is very similar to the one that 
would be put in place if the legislation we are discussing was 
passed.
    The legislation would provide a firm statutory foundation 
for the Great Lakes Restoration Initiative, as well as the 
advisory board that would be created and the Interagency Task 
Force. That would provide some continuity and more ability to 
plan going forward knowing that those entities existed and had 
a statutory foundation.
    Senator Boozman. Mr. Guertin, you mentioned on the Resource 
Protection Act that currently criminal and vandalism fines are 
collected. What happens to the revenue now?
    Mr. Guertin. Senator, that is a great question. Currently, 
if there is damage on a refuge, we have the authority to write 
the violator a ticket and collect a penalty which might be 
several hundred dollars. It goes to the General Fund of the 
Treasury, it does not come back to the refuge or hatchery where 
the damage took place.
    If this legislation were enacted, it would give the Service 
the ability to also pursue restitution or recovery of the 
actual damages much as we do with an oil spill or something 
similar and directly allocate that money back to the field 
station to remedy the damages on the ground.
    Senator Boozman. You actually determine the amount of the 
ticket and then the Department of Justice--who collects it?
    Mr. Guertin. Under current authority to write a citation, 
we have authority to collect a couple hundred dollars for a 
minor infraction up to $100,000.
    Senator Boozman. Then it goes into the General Fund?
    Mr. Guertin. The Treasury.
    Senator Boozman. If this were to pass, do you envision 
increased law enforcement in these?
    Mr. Guertin. Not necessarily, sir. We would have our 
ongoing eyes and ears of the refuge law enforcement program and 
other refuge personnel who would have this as a collateral 
duty.
    Currently their frustration is if damage occurs, there is 
no way to pursue damage restitution and the bill is passed to 
the taxpayer. The same people on the ground now would be able 
to be leaders in moving forward on a potential solution for 
damage restoration.
    Senator Boozman. Mr. Shapiro, regarding the Cardin bill for 
trying to clean up the Great Lakes with the overflow from 
sewage, what would be required? What would the guilty or the 
dirty dozen be required to do to make it such that those 
overflows wouldn't happen?
    Mr. Shapiro. The decisions they would have to make with 
regard to preventing overflows would have to be evaluated on a 
case by case basis. Some of that work may have already been 
done but I am not familiar with it.
    In general, the kinds of things you would have to do is 
look at the sources of the excess water; in some cases you may 
want to use additional storage, expand certain kinds of 
treatment capacity and in some cases, there may be leakage of 
stormwater into parts of the system that can be avoided. There 
are a variety of measures that would be considered to be 
undertaken.
    I would also note that in the bill, there are exemptions 
for extraordinary circumstances that would not result in a 
penalty. In general, some form of additional engineering would 
be necessary, an investment in order to prevent conditions 
leading to the overflow occurring.
    Senator Boozman. It must be there that there are a bunch of 
non-extraordinary circumstances occurring or you wouldn't need 
the bill.
    Mr. Shapiro. Correct.
    Senator Boozman. Are these older treatment plants, do you 
think?
    Mr. Shapiro. Are they older treatment plants?
    Senator Boozman. Yes. Would a newer sewage treatment plant 
be subject to as much problem with stormwater runoff or 
whatever the problem is?
    Mr. Shapiro. Often, these problems are an accumulation 
throughout the entire system. It may not be a problem at the 
plant; it could be a problem dealing with how stormwater and in 
some cases, combined sewer discharges are collected and 
transported to the plant and leakages into the system.
    Generally speaking, if it was a new plant, it would be 
designed for the right capacity. In some cases, it could be 
that the plant is simply pushed to the extreme of its capacity 
and needs more capacity. That is a potential problem but there 
are other issues with the collection system and the management 
of water that could lead to problems that would force a bypass 
in the system.
    Essentially, you have to bypass when there is just too much 
volume coming into the treatment units and rather than run the 
risk of destroying or damaging the treatment units, you are 
forced to have a bypass.
    Senator Boozman. Thank you very much.
    Senator Cardin. Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Mr. Guertin, you were involved in the field, your 
organization, and taking care of a lot of the precious natural 
resources that many Americans enjoy from mountains to coasts 
and very warm areas to very cold areas.
    Across that great span of geography, what are the sort of 
consequences you are beginning to see already in those 
properties as the result of climate change?
    Mr. Guertin. Certainly we are seeing along many of our 
coastal refuges, particularly here on the eastern seaboard, the 
impacts of sea level rise which is starting to inundate a lot 
of coastal and estuarine habitats. We can point to a lot of 
that being caused by climate change.
    As we move into the interior of the country, there is a 
growing belief that a lot of the severity and impacts from the 
big wildfires can be attributed as well. We are wildlife 
managers so we don't necessarily claim to be experts on the 
science behind the changing climate in and of itself.
    Our mission is to evaluate what climatic changes are doing 
to the trust species the Fish and Wildlife Service oversees.
    Senator Whitehouse. You are seeing habitat changes, species 
moving into new areas where they weren't before, you are seeing 
invasive species and pests?
    Mr. Guertin. Yes. The sad story is over and over again, 
when you add up the cumulative impacts of drought, fire, 
invasive species, exacerbated with an overlay of climate 
change, there are dramatic shifts in the composition of flora 
and fauna on many of the landscapes.
    How the species are responding to that is what we are 
working on now and developing adaptation strategies under the 
Administration's Wildlife Adaptation Management Plan and 
stepping that down into the action agencies for implementation.
    Senator Whitehouse. Some of the natural resources that we 
find on this earth that are at risk and are actually suffering 
some consequences already are ones that in turn provide benefit 
to the environment. When you lose them, you don't just lose 
them, it creates a knock-on effect. A dune on a coast, when it 
is gone, doesn't protect the headlands behind it. A forest, 
when it is dead, doesn't protect the streams that run through 
it.
    Could you elaborate a bit on the extent to which some of 
this natural infrastructure is actually providing ongoing value 
beyond its mere existence into the larger natural resource we 
all enjoy and depend on?
    Mr. Guertin. I think a good example would be the 
intermountain west, Senator. When you add up the impacts from 
ongoing drought and invasive species, pine bark beetle, and 
overlay that with a series of wildfires, overlay that with 
changing climatic conditions, we are seeing a large change in 
the composition of forests out there and the Rocky Mountain 
region in particular and the kind of animals that utilize those 
habitats out there.
    That is a pretty striking example that comes home to roost 
every summer as communities and the wild urban interface have 
to struggle with the severity of these fires and the large 
amount of Federal dollars now being expended to protect the 
citizens, protect the public investment and infrastructure and 
protect these valuable natural resources well.
    Senator Whitehouse. Along the coasts, is it correct that 
there are often wetland verges between the upland and either 
the ocean coast or a lake or river coast that exist in a kind 
of dynamic environment? If they are overwhelmed and are no 
longer successful at maintaining themselves and disappear, you 
can then get considerable follow on changes.
    I heard some of this when I was traveling along the 
southeastern Atlantic coast. There is a lot of storm 
protection, for instance, from these oceanside marshlands but 
if they get flooded so that creatures and grasses who maintain 
them cannot survive, then they turn into mud and wash away, and 
you have lost all that protection on the shore. Is that a 
simplified understanding?
    Mr. Guertin. You are talking about seawater intrusion into 
freshwater habitats. There is a lot of that going on along the 
coast.
    Our understanding is if you add up the cumulative impacts 
of changes in climatic conditions, erosion, invasive species, 
depending on where you are, fire or not, drought and such, we 
are seeing a change in the underlying habitat composition 
certainly on the eastern seaboard.
    A lot of the Administration's work with congressional 
support moving forward is trying to develop more resilient 
coastlines by engineering natural systems to provide storm 
surge protection, a lot of work to try and prioritize where 
these key habitats are left and things like that.
    Senator Whitehouse. Thank you very much, Mr. Guertin.
    Thank you, Mr. Chairman.
    As the Senator from Maryland and me representing Rhode 
Island, coastal resiliency is something we have to pay a lot of 
attention to. I appreciate Mr. Guertin's testimony.
    Senator Cardin. You are absolutely right. Looking at your 
legislation, I see how it could very much benefit the State of 
Maryland. Thank you for being so concerned about the State of 
Maryland.
    Thank you both very much. That will complete that panel.
    We will now go to our non-governmental, non-Federal panel. 
Dr. Bruce Stein is the Director of Climate Change Adaptation at 
the National Wildlife Federation. Chad Lord is the Policy 
Director, Healing Our Waters--Great Lakes Coalition and Senior 
Director, Water Policy, of the National Parks Conservation 
Association. Last, we have Mr. Tony Wasley, Director of the 
Nevada Department of Wildlife.
    We welcome all three of you. As I pointed out earlier, your 
written statements will be made a part of the record, without 
objection. You may proceed as you wish.
    Dr. Stein, we will start with you.

 STATEMENT OF BRUCE A. STEIN, Ph.D., DIRECTOR, CLIMATE CHANGE 
            ADAPTATION, NATIONAL WILDLIFE FEDERATION

    Mr. Stein. Thank you very much, Chairman Cardin, Ranking 
Member Boozman and Senator Whitehouse, for the opportunity to 
share the National Wildlife Federation's view on several of the 
important bills with the potential to benefit the Nation's 
wildlife.
    The National Wildlife Federation is a non-partisan, non-
profit organization whose mission is to inspire Americans to 
protect wildlife for our children's future. NWF is supported by 
49 State and territorial affiliates and more than 4 million 
members and supporters, including hunters, anglers and outdoor 
enthusiasts from across the Nation.
    My written testimony addresses a number of the bills under 
consideration by the subcommittee at this hearing. Here, I 
would like to focus on several bills that we support of 
particular interest to NWF.
    Regarding climate change, climate change is no longer a 
distant concern but already is affecting people and wildlife 
across the Nation. A rapidly changing climate, in fact, is 
emerging as the primary conservation challenge of our time. 
National resource managers increasingly will need to adopt 
climate smart approaches to conservation.
    S. 1202, the SAFE Act, introduced by Senator Whitehouse, is 
designed to help Federal and State agencies more effectively 
prepare for and adjust to the growing impacts of climate change 
on our Nation's natural resources.
    Considerable progress is now being made to incorporate 
climate adaptation and resilience into work across the Federal 
Government. The SAFE Act builds on a number of these important 
initiatives.
    In particular, the legislation would codify the National 
Fish, Wildlife and Plants Climate Adaptation Strategy and 
encourage implementation of this comprehensive blueprint for 
adaptation and resilience. It would also authorize key programs 
in the U.S. Geological Survey that focus on improving the 
scientific basis for reducing climate-related risk to wildlife 
and ecosystems.
    Climate adaptation will have costs but the cost of inaction 
would be far higher. The sooner we begin taking meaningful 
adaptation action, the more successful these efforts ultimately 
will be.
    Invasive species are another issue of grave concern to the 
National Wildlife Federation. We believe that the most 
effective approach to combating invasive species is by closing 
the pathways through which these species enter the country and 
spread; in other words, prevention.
    S. 1153, the Invasive Fish and Wildlife Prevention Act, 
introduced by Senator Gillibrand, would help close those 
invasion pathways by modernizing the Nation's antiquated 
systems governing the import and interstate transport of 
harmful, non-native animals.
    Current law provides the Fish and Wildlife Service with 
only limited powers to declare a species as injurious, a 
process that is painfully slow and expensive. S. 1153 would 
strengthen the ability of the Service to make timely, science-
based decisions as to whether a candidate for import is likely 
to be harmful to the Nation's ecosystems and economy.
    The legislation would also give the Service emergency 
listing authority similar to what USDA and the CDC already have 
to regulate imports that present disease risks.
    Quagga mussels, in fact, are an example of this need for 
modernization. A close relative of zebra mussels, as you have 
heard, they are spreading through western waterways, and 
listing is urgently needed to contain their damage.
    To expedite their listing as an injurious species, S. 2530, 
the Protecting Lakes Against Quaggas Act, would provide 
statutory listing of this species.
    The Great Lakes are a unique and vital ecosystem that face 
a variety of serious ecological threats from polluted runoff 
such as we just heard about to a potential invasion of 
veracious Asian carp. The Great Lakes Restoration Initiative, 
GLRI, was established to address various threats to the Lakes. 
Since its inception, it has been enormously effect.
    S. 1232, the Great Lakes Ecological and Economic Protection 
Act, introduced by Senator Levin, would provide formal 
authorization for the GLRI and ensure continued progress in 
restoring the Great Lakes.
    NWF is a member of the Healing Our Waters Coalition. Chad 
Lord, to my left, will be offering additional testimony on this 
bill on behalf of that coalition.
    Finally, S. 2560, the United States Fish and Wildlife 
Service Resource Protection Act, introduced by Chairman Cardin, 
would provide the Service with needed authority to receive 
compensation for damage caused by others to national wildlife 
refuges.
    Most refuges already are underfunded and currently repair 
of such damage must come from already strained budgets. The 
National Park Service and NOAA, in contrast, can recover any 
use damages for harm done to their property or resources. This 
legislation would confer similar authority to the Service and 
is a common sense solution to paying for the damages from 
vandalism and other destructive acts.
    In closing, healthy wildlife populations and habitats are 
core to who we are as a Nation. NWF is pleased to see Members 
of Congress put forward legislation to address a number of 
important wildlife related issues.
    We look forward to continuing to work with you to develop 
and pass legislation designed to protect wildlife and the 
habitats on which they and we depend.
    Thank you and I look forward to answering any questions.
    [The prepared statement of Mr. Stein follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Cardin. Thank you, Dr. Stein.
    Mr. Lord.

 STATEMENT OF CHAD LORD, POLICY DIRECTOR, HEALING OUR WATERS--
   GREAT LAKES COALITION, AND SENIOR DIRECTOR, WATER POLICY, 
            NATIONAL PARKS CONSERVATION ASSOCIATION

    Mr. Lord. Chairman Cardin, Ranking Member Boozman and 
Senator Whitehouse, thank you for inviting me to testify here 
today.
    The bills before the subcommittee all seem to do the same 
thing, protect our country's natural resources for future 
generations. Most of these bills benefit either our national 
parks, our Great Lakes or both.
    First, we appreciate the subcommittee considering 
legislation that helps our environment adapt to a changing 
climate. Senator Whitehouse's bill is a non-regulatory bill 
that builds upon existing Federal initiatives to set a 
framework for coordination on natural resource adaptation 
planning. This is important to our national parks.
    Rising waters and intense storms threaten our national 
monuments in Washington, DC, historical structures in the 
southeast and archeological evidence of the earliest settlers 
in Alaska. Glaciers that have for decades brought families to 
national parks in Montana, Alaska and Washington are vanishing.
    Though we cannot prevent some of the effects of climate 
change from occurring, we can slow climate-related changes by 
reducing the amount of carbon dioxide we emit to the 
atmosphere. We can and need to also ensure that we are as well 
prepared as possible.
    This principle also applies to Senator Heller's invasive 
species bill that addresses the damage caused by a particularly 
nasty invasive mussel by listing them as injurious under the 
Lacey Act. If there is any experience the Great Lakes does not 
want to share with western waters, it is the damage caused by 
the quagga mussel.
    These little creatures have caused billions of dollars in 
damage throughout the Great Lakes region and have undermined 
entire lake ecosystems. Six hundred waterways and 27 States are 
also now dealing with this problem.
    Invasive species are destroying the natural resources in 
our national parks and wrecking the Great Lakes and other 
waters around the country. Invasive species cost the United 
States more than $120 billion in damages every year. It would 
be much better for our national parks, Great Lakes and all our 
ecosystems if we weren't intentionally importing things that 
cause such damage to American landscapes.
    Senator Gillibrand's bill goes a long way in updating a 
114-year-old law, bringing U.S. screening standards into the 
21st century, reducing the damage to our economy and 
environment and allowing our public lands agencies to focus on 
other critical problems.
    Wearing my Great Lakes hat, I want to particularly thank 
the subcommittee for considering two bills designed to help 
restore and protect 20 percent of the world's fresh surface 
water. To put that in perspective, the water in Lake Superior 
alone is enough to submerge all of North and South America in 1 
foot of fresh water.
    Even though they are huge, they are still vulnerable to a 
number of threats from invasive species, habitat loss, toxic 
pollution and sewer overflows which is the focus of Senator 
Kirk's bill. His bill would prohibit sewer overflows on the 
Great Lakes Basin after 2033. His bill also sets region-wide 
reporting standards so everyone everywhere throughout this 
region knows when overflows occur.
    Even if sewer overflows end tomorrow, the region is still 
left with a legacy of environmental damage caused by years of 
neglect. A new legacy is being written right now in the region, 
one where States, cities, tribes, Federal agencies and citizens 
have come together to do something about the Great Lakes' 
problems.
    In 2005, the region established for itself a restoration 
blueprint, the result of a process kicked off by an Executive 
Order from President George W. Bush. President Obama followed 
up with an implementation plan and Congress has provided the 
resources for the restoration work through something called the 
Great Lakes Restoration Initiative, GLRI.
    The results of all this bipartisan support have been 
impressive. Toxic hot spots cleaned up after years of waiting 
create new economic opportunities. Thousands of acres of 
wetlands have been restored creating new, self-sustaining 
populations of fish like Lake Sturgeon. Ag lands put into 
conservation practices reduce algae producing runoff.
    Now is the time for Congress to authorize the GLRI for the 
long haul. The GLRI has broad based support from cities, 
States, chambers of commerce, tribes, industry and the more 
than 115 non-governmental organizations that make up the 
Healing Our Waters Coalition.
    This initiative is driven from the ground up, coordinates 
implementation activities and has created what your former 
colleague, Senator George Voinovich, kept calling for, an 
orchestra leader at the USEPA. It creates an effective and 
efficient mechanism for getting resources to the right places 
to do the right things on the ground and responds to the GAO. 
Most importantly, it is producing results.
    Senator Levin's bill authorizes the GLRI, among other 
important Great Lakes programs, putting in place a framework 
needed for ongoing and future success. Congresses and 
Presidents change; the Lakes are with us forever.
    We hope this committee will mark up this bill and send a 
strong message of support for this continuing work to transform 
last century's rust belt into this century's water belt of 
America. Moving Senator Levin's bill would also be a fitting 
tribute to one of your colleagues, a man who has fought for the 
Great Lakes his entire career.
    Thank you again for inviting me to testify today. I am 
happy to answer any questions you may have.
    [The prepared statement of Mr. Lord follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Senator Cardin. Thank you, Mr. Lord.
    Mr. Wasley.

   STATEMENT OF TONY WASLEY, DIRECTOR, NEVADA DEPARTMENT OF 
                            WILDLIFE

    Mr. Wasley. Thank you, Chairman Cardin and Ranking Member 
Boozman for the opportunity to provide the Nevada Department of 
Wildlife's views on S. 2530, the Protecting Lakes Against 
Quaggas Act of 2014, introduced by Senator Dean Heller on June 
25, 2014.
    The Nevada Department of Wildlife fully supports the 
legislation to add the genus Dreissena, specifically quagga 
mussels, to the National List of Invasive Species covered under 
the Lacey Act.
    In addition, the Department supports the exclusion of the 
listing on operation of public water systems, water 
conveyances, storage and distribution facilities noted in the 
Act.
    The State of Nevada has both quagga-infested waters and 
quagga-free waters and therefore must face the issue of quagga 
mussel infestation from a unique perspective. Nevada had the 
first documented population in the United States west of the 
Rocky Mountains in Lake Mead. Containment of this threat to the 
waters in which it presently exists requires creative and 
adaptive strategies.
    Additionally, in order to provide and protect priceless 
national resources such as the Lake Tahoe Basin, we must 
maintain its quagga-free status. Quagga and zebra mussels cause 
significant ecological and economic harm in the United States. 
The transport and introduction of aquatic invasive species into 
uninfected waters require shared responsibility at both the 
Federal and State level.
    In 2011, Nevada enacted the Nevada Aquatic Invasive Species 
Act, AB 167, which established provisions for protecting the 
waters of the State from aquatic invasive species. Established 
in the language were provisions providing the Nevada Department 
of Wildlife with the necessary authority to prohibit the 
transport of quagga and zebra mussels within the State. Other 
States have established similar language.
    At the Federal level, zebra mussels are currently listed as 
a prohibited species under the Lacey Act making the transport 
across State borders illegal. However, quagga mussels are 
excluded from coverage under title 18 of the U.S. Code because 
they are not previously recognized as a distinct species of 
Dreissena mussels.
    Quagga mussels are one of the greatest aquatic invasive 
species threats to the waters of the western States. For the 
Columbia River Basin, a 2010 Independent Economic Analysis 
Board report estimates that roughly $100 million annually would 
be required to maintain infrastructure operations for 
irrigation, fish passage and propagation, navigation and other 
Columbia-Snake River functions in response to an invasive 
mussel invasion.
    Such infestations have occurred in the Great Lakes and 
other eastern waterways as well as the southwestern part of the 
country. In another western State study, the invasion of quagga 
mussels into Lake Tahoe Basin could devastate Tahoe's fragile 
ecosystem and native fisheries, impact boats and recreation 
areas and could cost the Tahoe Basin more than $20 million 
annually.
    In 2007, quagga mussels were discovered in Lake Mead and 
are believed to have been introduced there by the movement of 
an infested watercraft trailered from the Great Lakes region. 
Since their discovery at Lake Mead, the mussels have spread 
throughout the lower Colorado River system, including Federal 
and State water supply networks.
    Currently, there are no feasible eradication methods 
available. However, when the States and Federal Government work 
together, we have increased capacity for preventing the 
movement and introduction of these invaders into uninfected 
waters.
    In 2013, in a joint effort between the Lake Mead National 
Recreation Area, the U.S. Fish and Wildlife Service and the 
Nevada Department of Wildlife, a prevention program was 
developed to assist in preventing quagga contaminated 
watercraft from exiting the park. Although still in its 
infancy, the program has provided the public with free 
decontaminations for fouled watercraft moving to other States 
and uninfected waters.
    The Lake Mead National Recreation Area Project has 
struggled with long term Federal funding and exists on a year-
to-year basis. Regardless of funding issues, the program is a 
prime example of the State of Nevada and agencies within the 
Federal Government working together to prevent the spread of 
quagga mussels into uninfected waterways.
    However, current Federal law, because of the exclusion of 
quagga mussels, does not provide adequate regulatory authority 
to assist the States in situations when a watercraft owner 
knowingly ignores decontamination stations and other State 
level requirements and transports quagga mussels across State 
lines.
    Further, the provisions of S. 2530 will significantly aid 
collaborative efforts between State and Federal partners when 
addressing invasive species issues on Federal lands such as 
units of the National Park Service.
    The Nevada Department of Wildlife supports the Act entitled 
Protecting Lakes Against Quaggas Act of 2014. The legislation 
is also supported by the Western Governors Association, Tahoe 
Regional Planning Agency, National Wildlife Federation, Pacific 
States Marine Fisheries Commission, Northwest Power and 
Conservation Council, Irrigation and Electrical Districts 
Association of Arizona and the National Environmental Coalition 
on Invasive Species.
    The wide array of supporters indicates this legislation is 
both necessary and warranted from an economic and natural 
resource management perspective. The Act will assist the States 
by strengthening the Federal Government's authority and 
preventing the interstate transport of quagga mussels and by 
providing increased opportunity for Federal and State 
collaboration.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to testify and I would be happy to answer any 
questions.
    [The prepared statement of Mr. Wasley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Senator Cardin. I thank all three of you for your 
testimony.
    Let me ask all three of you to respond. I think I will 
start with Mr. Wasley first.
    Dealing with the quagga mussels, the Department has raised 
some concerns about the exception related to the operation of 
public water systems or related water conveyance storage or 
distribution facilities.
    Mr. Wasley, as I understand, you support that exemption. 
Could you explain the rationale for the exemption? Dr. Stein or 
Mr. Lord, if you have any comments, I would welcome them.
    Mr. Wasley. I guess I would say that as a trained biologist 
and not having expertise in engineering or water conveyance 
systems, part of my concern is the timeliness of this and not 
letting perfect stand in the way of progress.
    The challenges of water conveyance are not insignificant. 
Water comes and goes from States throughout the west, and I 
would hate to see something like that hinder our ability to 
address this issue in a timely manner.
    Senator Cardin. Dr. Stein.
    Mr. Stein. We are very concerned about the spread of quagga 
mussels across the west and very much support the statutory 
listing of quagga mussels in this manner.
    The House bill, to which this is a companion, did not have 
that broad exemption for water conveyance systems, and quite 
honestly, we have not looked seriously at what some of the 
implications of that exemption are.
    We understand the concerns of the public water managers, 
but there is also a concern that transporting water in this way 
could, in fact, be a pathway for continued spread of the 
mussels. There is an open question, I think.
    Senator Cardin. There seems to be general agreement that 
the quagga mussel should be listed. If the Gillibrand bill were 
law, could it be handled through that bill by determination 
made as a result of the criterion that is established in that 
legislation?
    Mr. Lord. For something like the quagga mussel, probably 
not. The quagga mussel was introduced to the Great Lakes 
through the ballast tanks of ocean going vessels back in the 
1980s, so there would have been no chance to screen for that 
type of invasive species.
    What we are really looking at are other things that would 
potentially come in through U.S. customs, ports, those types of 
places where you would know what exactly it is you are looking 
for.
    Senator Cardin. Dr. Stein.
    Mr. Stein. While the primary intent of the Gillibrand bill 
would be to prevent new invasions, there is the emergency 
listing provision in the bill that I think could be invoked in 
a very time sensitive situation of this nature.
    Emergency listing has a time bound to it and so could not 
be used indefinitely, but at least it could provide immediate 
relief that could be used to provide the regulatory authorities 
to better put in place the very aggressive actions of the State 
of Nevada and Federal agencies in that region.
    Senator Cardin. Let me make a comment. You have all been 
supportive of the efforts by some of my colleagues, Senator 
Whitehouse dealing with adaptation, Senator Udall dealing with 
water efficiencies, I think Senator Feinstein has a bill also 
dealing with some of the habitat restoration.
    Last week, I was at the water treatment facility in 
Baltimore constructed 100 years ago and was state-of-the-art 
100 years ago. It is still functioning pretty much today as it 
did 100 years ago. It is carrying out its function, Baltimore 
has safe drinking water. It is good water. It is not efficient 
and costs a lot of money to run the operation. It loses a lot 
of water.
    I would just point out that the Senator Udall's efforts 
with regard to water efficiency are something that we all 
should be concerned about. We waste millions of gallons of 
water in our system because of the inefficiencies and spend 
millions of dollars in utility costs increasing our carbon 
footprint as a result of the inefficiencies of our water 
system. That is just one example.
    On adaptation, we have very valuable resources in our State 
as Senator Whitehouse mentioned. Assateague Island, one of the 
great treasures, is at risk today because of the changing 
climate in this country.
    We have seen when we adapt and do things that are smart, as 
we have on our coasts, we save literally millions of dollars in 
damages that otherwise would be caused. To me, the No. 1 effort 
is to do what we can to mitigate the circumstances surrounding 
climate changes but adaptation should be an area in which we 
all agree we can use additional resources.
    I really wanted to underscore some of the points that you 
all have made on those issues. I know our committee will try, 
as we have in the past, to work together in a bipartisan way on 
issues such as adaptation and mitigation and those types of 
areas where we can find a common area to move forward to help 
our communities.
    Let me turn it over to Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Dr. Stein, you mentioned that the National Wildlife 
Federation supported Congressman Runyan's bill to reauthorize 
the Voluntary Community Partnerships Act. Could you elaborate 
on the value you see from these volunteer programs and 
community partnerships?
    Mr. Stein. Certainly. The U.S. Fish and Wildlife Service 
refuge system, which I believe covers on the order of 150 
million acres, is an extraordinary national treasure, but the 
budget of the U.S. Fish and Wildlife Service is quite limited. 
In many places, they rely on active volunteer participation to 
carry out both visitor interpretative services as well as 
critical resource management activities.
    It is something that many other agencies rely on as well, 
but it is especially important on refuges. My understanding is 
that in order for the Service to continue to most fully use 
volunteers, it needs that reauthorization in order to continue.
    The National Wildlife Federation really focuses on 
connecting people with nature, especially getting kids 
connected to nature because that is our next generation of 
conservation leaders and really encourages the type of 
volunteerism that is embodied in that legislation.
    Senator Boozman. Very good. Thank you.
    Mr. Wasley, we appreciate you making the long trip to come 
and testify. You mentioned that the legislation would help you 
to work collaboratively with the Federal Government to address 
invasive species, particularly on Federal lands.
    You talked about this a little but can you elaborate a bit 
more on how the expanded authority would be of help?
    Mr. Wasley. Presently, we do have voluntary inspection 
stations and compliance, but we still have some folks that will 
willfully and knowingly cross State lines with quagga-infested 
watercraft either into the State or out of the State.
    Having a Federal law, potential violation of a Federal law, 
certainly is an additional tool and certainly provides a great 
incentive for compliance with that requirement. It elevates the 
seriousness of the infraction and will hopefully provide an 
additional functionality in screening and enforcing the current 
laws we have in the State as well as the Federal law.
    Senator Boozman. Very good.
    That is really all I have, Mr. Chairman. I do ask unanimous 
consent to include the testimony from Congressman Runyan in the 
record.
    Senator Cardin. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boozman. Also, I ask unanimous consent to include 
several statements on the Big Cats bill from the Motion Picture 
Association, Zoological Association of America and others.
    Senator Cardin. Without objection, all those statements 
will be included in our record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
   
    
    Senator Cardin. Let me thank our witnesses. As you pointed 
out, some came a considerable distance to be with us today and 
we appreciate that very much.
    With that, the subcommittee will stand adjourned.
    Thank you.
    [Whereupon, at 4:20 p.m., the subcommittee was adjourned.]
    [Additional statements submitted for the record follow:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Chairman Cardin, thank you for holding this hearing.
    Since we have a representative here from the Fish and 
Wildlife Service, I want to take this opportunity to talk about 
the problems we're having in Oklahoma with the lesser prairie 
chicken and the American burying beetle, and what I think we 
should do about it.
    The American burying beetle (ABB) was listed by the Service 
in 1989. The Service states in its listing decision that the 
ABB was ``once widely distributed throughout eastern North 
America.''
    At that time, there were only two known populations of the 
beetle--one in eastern Oklahoma and one on an island off the 
coast of Rhode Island. The Rhode Island population was 
estimated to be at about 520 beetles, and the one in Oklahoma 
was thought to have less than a dozen.
    The listing decision did include some commentary about why 
the beetle's population declined, but ultimately concluded that 
``the cause of the species' decline is unknown.''
    In 1991, the Service published a Recovery Plan for the ABB. 
The objective of the plan was to ``[protect] and [maintain] . . 
. the extant population in Rhode Island and the . . . 
populations in Oklahoma.'' In order to reconsider the listing 
status of the ABB, the Service needed to identify ``three 
populations of [ABB that] have been re-established (or 
additional populations discovered) within each of four broad 
geographical areas of its historical range.''
    The four ranges identified by the Service include the 
Midwest (which includes Oklahoma and most States between Texas, 
Louisiana, and Montana), the Great Lakes region, the Southeast 
region, and the Northeast region (which includes Rhode Island).
    In 2008, the Service performed its first 5-year review of 
the ABB. It determined that the criteria for reconsidering the 
listing of the ABB had been met in the Midwest region, ``where 
additional occurrences of the ABB have been discovered,'' and 
that, ``as a consequence, the total number of ABB in this 
recovery area is believed to greatly exceed the numerical 
target'' established under the Recovery Plan.
    This is undoubtedly true. The population now known to exist 
in Nebraska was recently estimated to contain over 3,000 
beetles, making it one of the largest known populations. 
Interestingly, Nebraska was not known to have any ABB in 1989 
when the species was listed.
    The known population in Oklahoma has also grown 
dramatically since the listing decision. When the Service 
listed the ABB, only four counties had a known ABB population; 
the Service now believes its range extends to 45 of the 77 
counties in the State. It is now believed Oklahoma's population 
is numbered in the thousands.
    Service documents from 2014 reveal that ABB is now found in 
Oklahoma, Arkansas, Nebraska, Kansas, South Dakota, Texas, 
Missouri, Massachusetts, and Rhode Island, the vast majority of 
which are located in the Midwest region.
    The 2008 5-Year Review further states that ``although one 
of four geographic recovery areas for ABB has met the criteria 
for reclassification, the species presumably remains extirpated 
in most of its historic range,'' and concludes that the ABB 
should retain its endangered status.
    I completely disagree. The ABB should no longer be listed 
in the Midwest region, and there is strong precedence for 
delisting endangered or threatened species in some areas, but 
not others.
    In 2011, the Service decided to delist the gray wolf from 
the endangered species list in Idaho, Montana, and parts of 
Oregon, Washington, and Utah while leaving it listed in 
Wyoming.
    This partial delisting was due to the healthy population 
levels that were present in those States, and it was left 
listed in Wyoming because the Service believed additional 
conservation work needed to be completed. Less than 2 years 
later, the delisting was extended to Wyoming, and in 2013 the 
gray wolf's protections under the ESA were completely removed.
    There is also a strong case to be made that the ABB should 
be completely delisted. Beginning in 2007, the Service 
promulgated an official policy stating that when it evaluates 
the probability of a species being lost to extinction across 
its range, it does so within its known existing range, not its 
hypothetical historic range.
    Knowing this, if the ABB were reconsidered as a candidate 
today, it likely would not be eligible for listing because the 
known populations are not in danger of being lost. They are, in 
fact, expanding. The historic range, described by the Service 
as being ``ubiquitous'' at some point, is reliant on very old 
data, observations, and studies, many of which are not readily 
locatable.
    There is so little known about this newly expanded presence 
of ABB. We don't know if we're just better at finding them now, 
or if the populations are actually growing. Whatever the case, 
it is clear that these beetles have proven much more resilient 
than the Service originally thought.
    With this in mind, I plan to introduce a bill next week 
that will delist the ABB from the Midwest region. There is no 
reason, especially given the lack of knowledge we have about 
the ABB, for it to remain as a protected species, particularly 
given the fact that its negative impact on economic activity 
expands with every new population that is discovered, 
especially in Oklahoma.
    Now I'd like to move on to the lesser prairie chicken, 
which was listed as a threatened species at the end of March. 
The decline in this species has largely been the result of 
drought--so it has had very little to do with human activity. 
It is likely that once the drought ends in western Oklahoma and 
the rest of the bird's known range, the population will 
flourish and strengthen to the point that a listing is no 
longer warranted.
    We've seen this recovery begin already. On July 1, when the 
Western Association of Fish and Wildlife Agencies (WAFWA) 
released its most recent annual lesser prairie chicken 
population survey, the bird's range-wide population showed an 
increase of 20 percent to 22,415 birds. To what was the 
increase attributable? According to WAFWA, the areas that 
showed the biggest improvement were ``where more rain produced 
better prairie habitat.''
    The range-wide conservation plan WAFWA organized is what 
the Service blessed as appropriate and thorough, and it is 
being used as the primary means to achieve take permits under 
the 4d rule. This program is being administered solely by the 
State wildlife agencies, and it now has over 160 companies 
participating. These firms have collectively enrolled about 9 
million acres for conservation across the five States. As part 
of this enrollment they have committed $43 million for habitat 
conservation, which will be deployed over the next 3 years.
    Knowing this, it was extremely frustrating to me that the 
Service decided to list the LPC even while it knew that this 
conservation would happen whether or not a listing was made 
final. To me, it made sense to allow the State-driven 
conservation plan to take root prior to making a decision to 
impose Federal protection. Instead, the Service demonstrated 
that it is a solution in search of a problem, and it leaves me 
wondering why the Federal Government is so quick to insert 
itself in a situation where States are already appropriately 
addressing a problem.
    To remedy this, I will also introduce legislation that 
delists the lesser prairie chicken for a period of about 5 
years to allow the State crafted range-wide plan to take root 
and work. If the Service determines after this time period that 
the recovery goals have not been met, then it can then reassess 
its findings and determine whether a listing is appropriate. 
This legislation is a companion to H.R. 4866, which Congressman 
Markwayne Mullin introduced just a few weeks ago.
    Again, Chairman Cardin, thank you for holding this hearing, 
and I look forward to working with my colleagues to enact these 
important bills.
                  Statement of Hon. Dianne Feinstein, 
               U.S. Senator from the State of California
    Mr. President, I rise today to introduce the ``Infrastructure 
Facilitation and Habitat Conservation Act of 2013.''
    This legislation will make it easier for communities across the 
Nation to improve their public infrastructure by providing access to 
cost effective Federal loan guarantees to mitigate the impacts of 
growth on the environment and endangered species.
    This bill authorizes a 10-year pilot program, to be administered 
jointly by the Secretaries of the Interior and Treasury, making credit 
more readily available to eligible public entities which are sponsors 
of Habitat Conservation Plans (HCPs) under section 10 of the Endangered 
Species Act of 1973.
                               background
    Habitat Conservation Plans were authorized by an amendment to the 
Endangered Species Act in 1982 as a means to permanently protect the 
habitat of threatened and endangered species, while facilitating the 
development of infrastructure, through issuance of a long-term 
``incidental take permit.''
    Equally important, HCPs can be very effective in avoiding, 
minimizing and mitigating the effects of development on endangered 
species and their habitats. HCPs are an essential tool, as Congress 
intended, in balancing the requirements of the Endangered Species Act 
with on-going construction and development activity.
                           california example
    In California, the Western Riverside County multiple species HCP is 
a prime example of effective habitat management. The Western Riverside 
MSHCP covers an area of 1.26 million acres, of which 500,000 will be 
permanently protected for the benefit of 146 species of plants and 
animals. To date, more than 347,000 acres of public land and 45,000 
acres of private land have been protected, at a cost of $420 million. 
In the case of the Western Riverside MSHCP, as with other HCPs 
nationwide, this strategy for advance mitigation of environmental 
impacts has facilitated the development of much needed transportation 
infrastructure. To date, the Western Riverside MSHCP has resulted in 
expedited environmental approval of 25 transportation infrastructure 
projects, which have contributed 32,411 jobs and $2.2 billion to the 
county's economy.
    Riverside has been one of the Nation's fastest growing counties, 
with a rate of growth during the last decade of 42 percent. Unless the 
development of infrastructure can be made to keep pace with this 
explosive population growth, neither environmental nor livability goals 
will be attained.
    In recent years, the economic downturn has slowed the pace of 
habitat acquisition in Western Riverside and other similarly situated 
communities. Revenue which had been generated by development fees to 
finance acquisition of habitat has also slowed.
    Now, ironically, signs of economic recovery in the region also 
signal increasing real estate prices that will make the acquisition of 
mitigation lands more challenging. That's why it is important to 
provide communities like Western Riverside ready access to capital now 
to help fund habitat conservation projects while real estate costs 
remain relatively low, saving them and other communities implementing 
HCPs billions of dollars.
                              how it works
    Under this bill, loan guarantee applicants would have to 
demonstrate their credit-worthiness and the likely success of their 
habitat acquisition programs. Priority would be given to HCPs in 
biologically rich regions whose natural attributes are threatened by 
rapid development. Other than the modest costs of administration, the 
bill would entail no Federal expenditure unless the local government 
defaulted--a very rare occurrence.
    These Federal guarantees will assure access to commercial credit at 
reduced rates of interest, enabling participating communities to take 
advantage of temporarily low prices for habitat. Prompt enactment of 
this legislation will provide multiple benefits at very low cost to the 
Federal taxpayer:
     protection of more habitat more quickly,
     accelerated development of infrastructure with minimum 
environmental impact, and
     reduction in the total cost of HCP land acquisition.
    A broad coalition of conservation organizations and infrastructure 
developers supports this legislation. In fact, the Senate also 
expressed support for this concept when it approved a similar, albeit 
more narrowly defined innovative financing program as part of the Water 
Resources Development Act (WRDA) last month. But where the WRDA 
provisions would be applicable to mitigate the environmental impacts 
related to the development of water infrastructure, this legislation 
would broaden that eligibility to transportation and other public 
infrastructure.
                               conclusion
    I urge my colleagues to support this legislation. I believe it will 
encourage infrastructure development and habitat conservation at 
minimal Federal risk. It is exactly the kind of partnership with local 
government that should be utilized to maximize efficient use of Federal 
dollars.

    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                 <all>
</pre></body></html>
